   United States Department of Agriculture
   Office of Inspector General




Analysis of FNS' Supplemental Nutrition
Assistance Program Fraud Prevention and
Detection Efforts




                                             Audit Report 27002-0011-13
                                             September 2012
                         United States Department of Agriculture
                                Office of Inspector General
                                 Washington, D.C. 20250




DATE:          September 28, 2012

AUDIT
NUMBER:        27002-0011-13

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Director
               Office of Internal Control, Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Analysis of FNS’ Supplemental Nutrition Assistance Program
               Fraud Prevention and Detection Efforts


This report presents the results of the subject review. Your written response to the official
draft is included at the end of this report. Excerpts of your September 24, 2012, response and
the Office of Inspector General’s position are incorporated into the applicable sections of the
report.

Based on your response, we have reached management decision on all of the report’s
recommendations. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of Chief Financial Officer.

Also, please note that Departmental Regulation 1720-1 requires final action to be taken
within 1 year of each management decision to prevent being listed in the Department’s
annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................4
Section 1: SNAP Fraud Detection and Reporting ...............................................9
   Finding 1: Improvements Needed in Fraud Detection and Prevention Tools
   ................................................................................................................................9
         Recommendation 1 ......................................................................................15
         Recommendation 2 ......................................................................................16
         Recommendation 3 ......................................................................................16
         Recommendation 4 ......................................................................................17
         Recommendation 5 ......................................................................................17
         Recommendation 6 ......................................................................................18
         Recommendation 7 ......................................................................................18
   Finding 2: FNS Can Improve the SNAP Trafficking Fraud Rate
   Methodology ........................................................................................................19
         Recommendation 8 ......................................................................................21
         Recommendation 9 ......................................................................................21
Scope and Methodology .........................................................................................22
Abbreviations .........................................................................................................24
Exhibit A: List of OIG SNAP Audit Reports ......................................................25
Agency’s Response .................................................................................................27
Analysis of FNS’ Supplemental Nutrition Assistance Program
Fraud Prevention and Detection Efforts – 27002-0011-13

Executive Summary

The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP),
formerly known as the Food Stamp Program, provides monthly food assistance and nutrition for
the health and well-being of more than 44 million low-income individuals.1 The program has
grown by 70 percent since 2007 and disbursed over $71.8 billion in benefits in fiscal year (FY)
2011. Given the program’s significance, fraud committed by both SNAP recipients and the retailers
that redeem SNAP benefits is a critical concern. For this audit, we began by analyzing SNAP-
related databases at Federal and State levels to identify anomalies that may result in ineligible
individuals receiving SNAP benefits. In response to questions posed during the December 2011
House Agriculture Committee's Subcommittee on Department Operations, Oversight, and
Credit's hearing, we expanded our audit scope.2 The Subcommittee Chairman asked the Office
of Inspector General (OIG) to evaluate FNS and State agency tools used to prevent and detect
SNAP fraud, and also to evaluate the integrity of recipient and retailer fraud reporting.

While FNS and States do have tools for ensuring applicant eligibility and detecting fraud, States
either do not make full use of the tools, or cannot rely on the data provided by the tools to take
actions related to benefits. This occurs because FNS does not require States to use all the tools
available to them. Also, States consider some databases’ data to be unreliable, and must conduct
further research before acting on data contained within them. Research is often conducted by the
States’ fraud detection and prevention units; however, in the 10 States we visited, we found that
despite significant increases in SNAP participation none of the States had increased the
resources in these units.

We found that of the more than 13.9 million average monthly recipients in the 10 States we
reviewed, there were 27,044 recipients (.20 percent) who were potentially deceased, using a
deceased individual’s Social Security Number (SSN), had erroneous SSNs, were receiving
duplicate benefits in the same State, were receiving benefits simultaneously from at least one
other State, or were listed as being disqualified from receiving SNAP benefits.3 These
potentially ineligible recipients cause us to question approximately $3.7 million for each month




1
  For fiscal year 2011 according to FNS’ SNAP: Average Monthly Participation, April 30, 2012.
2
  Subcommittee on Department Operations, Oversight, and Credit of the House Committee on Agriculture, Hearing
to Review Updates on USDA Inspector General Audits, Including SNAP Fraud Detection Efforts and IT
Compliance, December 1, 2011.
3
  Of the 13.9 million average monthly recipients in the 10 States we reviewed, our State audits collectively identified
8,612 (.06 percent) individuals matching deceased individuals SSN’s; 2,080 (.01 percent) with erroneous SSN’s;
8,182 (.06 percent) receiving duplicate benefits in the same State; 6,865 (.05 percent) receiving benefits
simultaneously from at least one other State; and 1,305 (.01 percent) listed as being disqualified from receiving
SNAP benefits.

                                                                           AUDIT REPORT 27002-0011-13                1
they received benefits.4 Given the size and complexity of SNAP, this low rate of data anomalies
is a notable achievement and the States have made significant progress resolving the questioned
recipients identified in our matches. However, since SNAP participation has reached record
levels, we believe that even incremental improvements in fraud detection and prevention can
have a meaningful impact on SNAP program integrity.

We also evaluated how FNS reports fraud in SNAP. Recipient fraud can occur when a client
obtains benefits by providing fraudulent information to a caseworker, as well as when a client
misuses benefits. Detecting and preventing recipient fraud is predominantly the responsibility of
the States. Retailer fraud involves any instance where a store employee exchanges something
other than food (typically cash) for benefits—called “trafficking”—or store owners redeem more
benefits than the store’s total food sales, or a store employee charges an electronic benefits
transfer (EBT) card manually without an associated purchase. Detecting and preventing retailer
fraud is primarily the responsibility of FNS.

We also found that FNS has not established processes to identify or estimate the total amount of
SNAP fraud occurring nationwide, either by recipients or by retailers. As a result, FNS does not
have tools to effectively measure a total SNAP fraud rate over time. FNS cannot estimate a
recipient fraud rate because it has not established how States should compile, track, and report
fraud in a uniform manner. FNS reports recipient fraud as the number of recipients disqualified
each year. This number only includes those recipients actually identified committing fraud and
does not estimate the rate of potential fraud. Without a consistent methodology for compiling
recipient fraud data, we believe the current method of State reporting would make it difficult for
FNS to provide a total recipient fraud rate. As for retailer fraud, FNS does not report a total rate
but instead focuses on reporting a trafficking rate.5 Because FNS estimates its trafficking rate
using a judgmental sample method, results may not be representative of the retailer population;
therefore, the actual extent of trafficking could be over or underestimated.

In addition to this report, we have previously issued 10 State-specific reports detailing potentially
ineligible recipients we identified in each State during our review.6 This report presents a
summation of our previous findings, identifies new issues that emerged during our subsequent
fieldwork, and reflects new information related to our expanded objective.

Recommendation Summary
To better detect and prevent recipient fraud, FNS should specify a set of tools that States are
required to use for fraud detection, and create associated guidelines for their consistent usage.
Also, FNS needs to designate systems that can be relied on by States so they are able to take

4
  Our State audits collectively identified 27,044 potentially ineligible recipients, which cause us to question
approximately $3.7 million for each month they received benefits: Alabama - $207,989; Florida - $380,225;
Kansas - $112,831; Louisiana - $308,704; Massachusetts - $117,767; Mississippi - $123,643; Missouri - $96,409;
New Jersey - $569,098; New York - $1,268,260; and Texas - $523,551.
5
  Trafficking is any instance where a store employee exchanges something other than food (typically cash) for
SNAP benefits.
6
  We issued State-specific reports for Alabama, Florida, Kansas, Louisiana, Massachusetts, Mississippi, Missouri,
New Jersey, New York, and Texas.

2     AUDIT REPORT 27002-0011-13
immediate action based on their data, and improve the quality of data in its current systems. In
addition, FNS must establish a nationwide system and new requirements to prevent duplicate
interstate and intrastate accounts. FNS has awarded a grant to develop a pilot of such a system.
In order to make effective use of its detection tools, FNS should also ensure States have internal
controls in place to protect the integrity of data input. To improve its fraud reporting, FNS
should assess the feasibility of (1) creating a uniform method for States to report recipient fraud
and (2) conducting a nationwide random sample of SNAP retailers.

Agency Response
FNS agrees with our recommendations. It has issued guidance to the States clarifying the
requirements of using the Social Security Administration's Death Master File, identifying
duplicate participation, and explaining the expectations regarding fraud prevention and detection.
It is also working to enhance the disqualified recipient tracking system and develop a new
system that can aid the States in detecting interstate duplicate participation. FNS will continue to
work with States to make them aware of systems that are verified upon receipt. FNS is also
going to determine the feasibility of creating a uniform methodology for States to calculate a
fraud rate, and the feasibility of using the redemption practices of a nationwide random sample
of SNAP retailers for calculating a national trafficking rate. FNS estimates all recommendations
will be addressed by September 30, 2013.

OIG Position
OIG concurs with FNS’ response. We have reached management decision on the report’s nine
recommendations.




                                                               AUDIT REPORT 27002-0011-13         3
Background and Objectives

Background
FNS’ SNAP, formerly known as the Food Stamp Program, provides monthly food assistance and
nutrition for the health and well-being of more than 44 million low-income individuals. Since
2007, the program has grown by 70 percent. In FY 2011, FNS disbursed over $71.8 billion in
SNAP benefits that were redeemed by an average of 44.7 million recipients each month. While
FNS pays the full cost of recipient benefits, both FNS and the States share the program’s
administrative costs.

SNAP helps low-income families buy nutritious foods at FNS-authorized stores.7 FNS has
replaced paper benefits with EBT transaction cards, which are used like debit cards at retailers to
purchase food. Each State hires a contractor, or EBT processor, to handle its EBT transactions.
For enrollment and eligibility procedures, SNAP regulations at the Federal level specify minimum
guidelines, such as maximum income requirements, to be enforced by the State agencies.

FNS’ policy is to allow State agencies the flexibility to establish control systems that meet the
individual needs of each State, so long as they satisfy Federal requirements. Each State agency also
develops and maintains its own unique eligibility system, including software and databases. In most
State agencies we reviewed, applicants submit documents to prove citizenship, residency, income,
and expenses. To continue in the program, recipients are required to report that they are still
eligible every 6 or 12 months, depending on the applicant’s status. SNAP recipients are
approved or denied by the State agency based on pre-established eligibility requirements.

Once applicants have submitted eligibility information, the State agencies perform several
automated data checks to validate selected submitted information, including SSNs. State agencies
are required to establish a system to ensure that individuals incarcerated in Federal, State, or Local
prison for more than 30 days are not receiving benefits.8 State agencies must also check recipient
data against a national Social Security Administration (SSA) database to ensure that the State
agency does not authorize or issue benefits to deceased persons.9, 10 In addition, most State agencies
that administer SNAP utilize additional national and State database systems to verify income and
employment information provided by applicants.




7
  "Stores" and "retailers" include grocery stores, supermarkets, meal services, farmer’s markets, etc. Although we
use the terms "store" and "retailer" in this report, we extend this term to other types of organizations, such as
wholesalers, meal services, and group living arrangements. As stated at 7 Code of Federal Regulations (CFR)
§278.1(a), FNS approves retailers and stores for participation in SNAP.
8
  Public Law (PL) 105-33, Balanced Budget Act of 1997, Section 1003(a)(1), August 5, 1997; and PL 110-246, the
Food and Nutrition Act of 2008, Section 11(q), October 1, 2008.
9
  Provided at no cost to State agencies, the State Verification Exchange System (SVES) matches against several
national databases to provide death and SSN verification information for every submitted individual. SSA’s Death
Master File can also be used to identify deceased recipients.
10
   PL 105-379, An Act to Amend the Food Stamp Act of 1977, Section 1(a), November 12, 1998.

4     AUDIT REPORT 27002-0011-13
State agencies also have primary responsibility for discovering improper payments issued to
recipients, as well as intentional program violators.11 This can be the result of fraud, recipient
error, or agency error. States are primarily responsible for addressing recipient fraud, while FNS
is responsible for addressing retailer fraud. Recipient and retailer fraud data would need to be
combined to produce total SNAP fraud. Currently, various investigative bodies are responsible
for monitoring SNAP fraud.

     ·   FNS has an internal investigative unit, the Retailer Investigations Branch (RIB), which
         conducts investigations to monitor the activities of SNAP retailers. The RIB can take
         disqualification actions based on its investigations.
     ·   USDA OIG also conducts criminal investigations of retailer fraud.
     ·   State fraud detection units conduct statewide investigations of recipient fraud, and can
         form State Law Enforcement Bureau (SLEB) agreements with FNS to investigate and
         take administrative action against retailers committing fraud. The size, structure, and
         operation of these units vary by State.

FNS and the State agencies have several tools to monitor SNAP fraud. Briefly, these systems are:

         The Anti-Fraud Locator Using Electronic Benefits Transfer Retailer Transactions
         (ALERT), maintained by FNS, analyzes patterns in States’ EBT transaction data to
         identify suspicious patterns most commonly associated with SNAP retailer fraudulent
         behavior such as benefit trafficking.12 Currently, FNS is enhancing ALERT with more
         advanced technology and analytical tools to improve its ability to identify suspicious
         SNAP retailers. FNS refers to the updated system as “Next Generation ALERT,” and
         phase one of the project was implemented in June 2012. Examples of the enhancements
         include providing three years of data as opposed to one; calculating time and distance
         patterns to identify fraudulent behavior; and tracking the activity of households that have
         previously redeemed benefits at a disqualified retailer to identify other possible
         trafficking retailers.

         The Watch List compiles retailer data that meet predefined parameters (generally,
         retailers with the highest ALERT scores) into a single list. Investigators use the Watch
         List to identify stores for investigation.

         The Store Tracking and Redemptions System (STARS) helps FNS manage data on
         participating retailers. It contains information about the retailers and identifies their
         investigative history. It includes administrative information about the store, such as the
         name of the owner, the store’s location and hours, sales data, etc. Information from
         STARS is incorporated into the ALERT system.

11
   An intentional program violation is defined as any act violating the Food and Nutrition Act of 2008, the SNAP
regulations, or any State statute, for the purpose of using, presenting, transferring, acquiring, receiving, possessing,
or trafficking SNAP benefits. The definition includes any act that constitutes making a false or misleading
statement or concealing or withholding facts.
12
   FNS’ retailer compliance department, known as the RIB, uses ALERT information to investigate retailers. RIB’s
nationwide staff conduct undercover investigations of SNAP approved retailers. RIB investigators receive
professional training and conduct investigations throughout the year.

                                                                            AUDIT REPORT 27002-0011-13                 5
        Public Assistance Reporting Information System (PARIS) is a Department of Health
        and Human Services’ (HHS) computer system where the SSNs of public assistance
        recipients can be matched against various Federal databases and those of participating
        States to prevent simultaneous participation in benefit programs among States. FNS does
        not require States to participate in PARIS or to check for interstate participation.

        National Accuracy Clearinghouse (NAC) Database Pilot stems from a grant FNS
        awarded through the Office of Management and Budget (OMB) Partnership Fund for
        Program Integrity Innovation that will fund the development of a system to detect
        duplicate participation in five Southern States. FNS anticipates the pilot will run from
        July 2013 until June 2014.

        Electronic Disqualified Recipient System (eDRS) is a national internet-based system
        developed and administered by FNS that contains records of SNAP recipients who have
        been disqualified in each State. States are responsible for adding, modifying, and
        removing records from the system.

        The State Activity Report (SAR) is the main way States report their fraud detection
        efforts to FNS.13 The SAR is a compilation of both State-reported data and data
        calculated from information provided by the States. States annually report on their fraud
        detection efforts, such as providing the number of investigations they conduct in a year,
        as well as general program information such as participation levels, amount of benefits
        issued, and administrative costs.

        The SNAP Quality Control System measures the accuracy of State eligibility and
        benefit determinations, referred to as the “payment error rate.” This rate, as of FY 2011,
        was at an all-time low of 3.80.

        EBT reports provide States with detailed analyses of recipient activities based on
        information collected and maintained by the States’ EBT contractors. States must request
        EBT reports from contractors, and the costs and types of these reports vary for each
        contractor. States can request specific reports tailored to their own needs; however there
        is usually an additional cost for these reports. These reports are intended to assist the
        States with program management, operations, and performance.

As part of our expanded audit scope, we looked at item-level SNAP purchases and recipient and
retailer fraud rates.

FNS has previously conducted a study on the feasibility of collecting and analyzing detailed
information on what products recipients buy from retail stores with their SNAP benefits. This
study, issued in September 1999, determined that it was possible to collect item-level SNAP
purchase data from retailers with scanning systems, but only by requesting the information



13
  FNS’ national office prepares the SAR from information reported by each State in the Program and Budget
Summary Statement Part B – Program Activity Statement Report (FNS-366B) report.

6     AUDIT REPORT 27002-0011-13
manually and on a case-by-case basis.14 Collecting such information on a massive scale—for
instance, as part of a nationwide database—was found to be unfeasible because each store uses
different systems and collects information about product types differently. In addition, retailers
are not required to submit such information to FNS, and consider such information to be
sensitive and proprietary. The study concluded that collecting item-level food data on a
voluntary basis from SNAP retailers would be costly and have very low compliance.

One of the challenges faced when trying to quantify the item-level purchases of SNAP recipients
is the sheer number of food items available for purchase. According to the Food Marketing
Institute, the average supermarket carried nearly 39,000 items in 2010.15 FNS plans to initiate a
study in FY 2013 to determine the feasibility of using the redemption practices of a nationwide
random sample of SNAP retailers for calculating a national trafficking rate. FNS plans to
investigate the options for automatically capturing item-level details using EBT systems or
similar cash register technology, as point-of-sale records provide reliable, independently created
documentation of the benefits redeemed by recipients at the SNAP retailers’ registers.

FNS also estimates the percentage of fraud that occurs in the SNAP program due to “trafficking,”
which is a specific type of retail fraud that generally involves a store employee exchanging
something other than food (typically cash) for SNAP benefits. The most recent study found that:

     ·   Trafficking diverted an estimated $330 million annually from SNAP benefits. 16
     ·   Overall, one cent of each benefit dollar was trafficked.
     ·   About eight percent of all authorized SNAP stores engaged in trafficking.

In December 2011, FNS explained its three key oversight areas to curb fraud and enhance SNAP
integrity.17 Its first focus area—reducing improper payments and errors—is addressed by the
FNS Quality Control system, which identifies over or under payments to recipients. FNS stated
that its payment accuracy rate was 96.2 percent in FY 2011. The second area—combating the
abuse and misuse of benefits—includes the improvements to ALERT, plans to upgrade retailer
surveillance technology, promotion of a trafficking hotline number, and an expanded definition
of trafficking. Moreover, FNS is in the process of developing stronger penalties and sanctions
for small retailers. To address the third area—better pursuing recipient fraud—FNS issued
guidance encouraging States to make greater use of USDA fraud data, reminded States of the
importance of data matching, and sent letters to State Commissioners and Governors in 2011
expressing the importance of addressing recipient integrity issues.18




14
   FNS, Office of Analysis, Nutrition, and Evaluation Study, Feasibility Study of Capturing Food Data at Checkout,
September 1999.
15
   FNS, Research and Evaluation Plan—Fiscal Year 2012, February 9, 2012.
16
   The Extent of Trafficking in the Supplemental Nutrition Assistance Program: 2006-2008 Final Report,
March 2011. This study is the fifth in a series of periodic analyses to estimate the extent of trafficking in SNAP.
17
   USDA Announces New Tactics to Combat Fraud and Enhance SNAP Program Integrity, Release No. 0503.11,
December 6, 2011.
18
   FNS, Fighting SNAP Fraud site: http://www.fns.usda.gov/snap/fraud.htm.

                                                                         AUDIT REPORT 27002-0011-13              7
Objectives
When we began this audit, our overall objectives were to:

    ·    Determine whether funds were used properly by analyzing SNAP-related databases at
         Federal and State levels for anomalies and signs of fraud, waste, and abuse.
    ·    Compare the 10 selected States’ SNAP recipient databases to SSA’s Death Master File.

However, after the December 2011 House Agriculture Committee's Subcommittee on
Department Operations, Oversight, and Credit's hearing on SNAP fraud, our scope was expanded
to:

    ·    Evaluate the adequacy of FNS and State tools used to prevent and detect SNAP fraud,
         and whether the States were using the tools provided.
    ·    Identify and evaluate the integrity of amounts reported for recipient and retailer fraud.




8       AUDIT REPORT 27002-0011-13
Section 1: SNAP Fraud Detection and Reporting

Finding 1: Improvements Needed in Fraud Detection and Prevention Tools
While FNS and States do have tools for ensuring applicant eligibility and detecting fraud, States
either do not make full use of the tools, or cannot rely on the data provided by these tools to take
actions related to benefits. This occurs because FNS does not require States to use all the tools
available to them. Also, States consider some databases such as PARIS and eDRS to be
unreliable because of incomplete or untimely data. When States feel that they cannot rely on the
data, they must research each potential case of fraud identified before taking action. Research is
often conducted by the States’ fraud detection and prevention units; however in the 10 States we
visited we found that despite significant increases in SNAP participation, none of the States had
increased the resources in these units. In fact, FNS officials stated that States face significant
resource challenges and are relying on staffing cuts, as well as furloughs, to meet current
financial challenges.

As a result, we found that of the over 13.9 million average monthly recipients in the 10 States we
reviewed, 27,044 recipients (.20 percent) were potentially deceased, using a deceased
individual’s SSN, had erroneous SSNs, were receiving duplicate benefits in the same State, were
receiving benefits simultaneously from at least one other State, or were listed as being
disqualified from receiving SNAP benefits. 19 These potentially ineligible recipients cause us to
question approximately $3.7 million for each month they received benefits.20 Also, we found
that States were not evaluating EBT reports as an additional tool for identifying recipient fraud.
Given the size and complexity of SNAP, this low rate of data anomalies is a notable
achievement. However, since SNAP participation has reached record levels, we believe that
even incremental improvements in detection and prevention can have a meaningful impact on
SNAP program integrity.

FNS can designate certain databases as “verified upon receipt” (hereafter referred to as verified),
which means that States are allowed to take action based solely on the data results. FNS
designates databases as verified based on two criteria: (1) the database is not questionable, and
(2) the provider is the primary source of the information.21 While FNS does give examples of
three Federal databases from other agencies that meet these criteria, it does not provide a
comprehensive list of the databases that it considers verified. States also have authority to
designate databases as verified if they choose.

19
   Of the 13.9 million average monthly recipients in the 10 States we reviewed, our State audits collectively
identified 8,612 (.06 percent) individuals matching deceased individuals SSN’s; 2,080 (.01 percent) with erroneous
SSN’s; 8,182 (.06 percent) receiving duplicate benefits in the same State; 6,865 (.05 percent) receiving benefits
simultaneously from at least one other State; and 1,305 (.01 percent) listed as being disqualified from receiving
SNAP benefits.
20
   Our State audits collectively identified 27,044 potentially ineligible recipients, which cause us to question
approximately $3.7 million for each month they received benefits: Alabama - $207,989; Florida - $380,225;
Kansas - $112,831; Louisiana - $308,704; Massachusetts - $117,767; Mississippi - $123,643; Missouri - $96,409;
New Jersey - $569,098; New York - $1,268,260; and Texas - $523,551.
21
   FNS, SNAP Questions and Answers on the Noncitizen Eligibility and Certification Provisions Final Rule,
November 21, 2000.

                                                                         AUDIT REPORT 27002-0011-13              9
FNS instructs State agencies not to discontinue benefits based on information from a database
unless the database is considered verified. The Computer Matching and Privacy Act of 1988
requires that all matches from databases that are not verified be confirmed through a secondary
source. We found that even when a potentially ineligible recipient is identified using a verified
system, States are generally still conducting further research before they will terminate the
recipient’s benefits.

Database Weaknesses

FNS and the State agencies have several databases to aid in monitoring SNAP fraud. An example
of this would be verifying that benefits are not issued to individuals who are deceased by
comparing the information in SNAP recipient databases with national (SSA) death information.
Despite the States’ efforts to perform checks on applicant information, we found the following
weaknesses in the databases that resulted in potentially ineligible recipients in the SNAP
program:

        SSA Death Match: To verify that benefits are not issued to individuals who are
        deceased, State agencies that administer SNAP are required to compare the information
        in their SNAP recipient databases with national (SSA) death information.22 We used
        SSA’s Death Master File (DMF), which is a comprehensive list of deaths, to perform this
        check in the 10 States we examined. Though our audit work did not address the accuracy
        of the DMF, an SSA official asserted that SSA death data are 99.5 percent accurate and
        the DMF is not a verified system.23

        We found that 8,612 current SNAP recipients’ SSNs matched SSNs in the DMF. This
        occurred for several reasons. The most common reason is that, though State agencies
        may have identified the match between the DMF SSN and the current recipient’s SSN,
        they cannot act on the information until they have conducted further research.

        After a match is found, States require further research to ensure the data were correct—
        which takes time and resources. Therefore, the States waited until the recipients next
        recertification period, generally 6 or 12 months, to discontinue benefits, which is allowed




22
  Food and Nutrition Act of 2008, Section 11(r), October 1, 2008.
23
  Social Security Testimony Before Congress, Statement of Bill Gray, Deputy Commissioner of System SSA,
Testimony before the Permanent Subcommittee on Investigations of the Senate Committee on Homeland Security
and Governmental Affairs on Medicare Payments for Claims with Identification Numbers of Dead Doctors,
July 9, 2008.

10      AUDIT REPORT 27002-0011-13
         under the “simplified reporting” policy.24,25 Simplified reporting was implemented to
         reduce the frequency that SNAP recipients are required to provide information in order to
         maintain eligibility and benefits. Reducing the frequency of recipient information
         received reduces the recipient’s reporting burden and the States’ administrative burden to
         verify the information.

         We found that in some cases, a State could not rely on the death match because the SSN
         entered into the State’s system was input incorrectly and therefore erroneously matched
         the death file. Since we noted that all 10 State agencies’ systems had SSN input errors
         which resulted in death matches, we believe a control to prevent SSN input errors could
         help mitigate improper payments and erroneous cases of living persons being identified
         as deceased. Also, because there are several Federal databases containing SSA death
         information, FNS should designate a comprehensive, national database containing
         information on deceased individuals, and require States to check that system periodically
         and take appropriate action on the results. FNS responded that it is currently in the
         process of issuing this guidance.

         Several of the death matches we found involved other issues, such as one State agency
         that did not use a national SSA database, but was instead using a file that listed only
         individuals who had died in its State. Two other State agencies experienced system
         problems during the period we reviewed, and therefore were not performing the matches.
         Another State only ran the match on a quarterly basis, so it experienced timing delays in
         identifying potentially deceased recipients. Both FNS and the States are working to
         correct these issues based on our previous recommendations in the individual State audit
         reports.

         Simultaneous Participation in Multiple States: We also found individuals who were
         simultaneously receiving benefits in multiple States. A recipient should only receive
         benefits from the State in which he resides.26 Currently, FNS does not have a nationwide
         system of SNAP recipients, and each State maintains its own eligibility system.

         The Public Assistance Reporting Information System (PARIS) is the HHS computer
         system which matches the SSNs of public assistance recipients against various Federal
         and participating State databases to prevent simultaneous participation in benefit
         programs in multiple States. PARIS’ interstate match compares the SSNs of all
         participating States’ public assistance recipients to determine if they are enrolled in two
         or more States. Nine of the 10 States we reviewed participated in PARIS to detect and
         prevent simultaneous interstate participation. However, participation in this database is

24
   7 CFR 273.12(a)(5). Households certified for SNAP for longer than 6 months must submit a periodic report at
least once every 6 months, but no more than once every 4 months, during the certification period. Some State
agencies have opted to certify simplified reporting households for 12 months, with a periodic report at 6 months.
25
   State agencies have the option of requiring SNAP recipients to report their financial circumstances at various
intervals and in various ways. The intervals are referred to as “interim reviews.” States can conduct interim reviews
either quarterly, monthly, or under a “simplified” system with reduced reporting requirements. Under the simplified
reporting option, households are required to report changes in income between certification and scheduled reporting
periods only when total countable income rises above 130 percent of the poverty level.
26
   Food and Nutrition Act of 2008, Section (j), October 1, 2008.

                                                                        AUDIT REPORT 27002-0011-13               11
         not required by FNS, and Federal regulations only require that States check for intrastate
         duplicate participation.27 Further, PARIS gathers data on a quarterly basis and some
         States may submit their recipient data to PARIS less often than quarterly. When States
         submit their data on a quarterly or less than quarterly basis, those that check PARIS may
         not be running matches against the most current information.

         Despite the high level of participation in PARIS, we found 6,865 recipients who were
         receiving SNAP benefits simultaneously in multiple States. As with SSA death matches,
         after receiving a match in PARIS, State agencies must research the match to ensure it is
         valid before they remove a recipient from the program.

         FNS encourages States to identify individuals simultaneously participating in multiple
         States, yet does not require the use of PARIS and does not provide guidance for
         performing this type of check. FNS awarded a grant for a pilot system in March 2012
         that will allow the five participating southern States to check for duplication in real-time.
         With mandatory participation of such a system, FNS could ensure that State agencies use
         a reliable, complete, nationwide database that could improve their fraud detection efforts
         and reduce interstate duplicate participation.

         Duplicate Accounts Within One State: States are required to ensure that no individual
         participates in more than one household within the same State, and FNS issued a policy
         memorandum on November 15, 2011 reminding States of this requirement.28 However,
         we found 8,182 instances where individuals were potentially receiving SNAP benefits
         simultaneously under two separate households within the same State. This generally
         occurred in three States where there was not an edit check that prevented an SSN from
         being entered twice in the State’s system. During our fieldwork, we found several edit
         checks that could have helped to prevent duplicate accounts; however, these checks were
         not used by all States. We recommend that FNS consider providing guidance or
         requiring an edit check that would prevent duplicative accounts.

         Erroneous SSNs: In most States we found erroneous SSNs in the system that caused
         invalid matches. These erroneous SSNs bring the integrity of the data into question,
         causing States to use already short resources to conduct further research prior to acting on
         matches. The erroneous SSNs resulted from processor’s input errors. We note that
         throughout our analysis of various State databases, we found frequent SSN input errors.
         As noted above, many of our SSN matches with the DMF were caused by erroneous
         SSNs that incorrectly matched against a deceased individual’s SSN.

         Some of the erroneous SSNs could have been prevented by using an edit check for SSN
         schemes that are not allowed by SSA, such as those starting with “666.” In the 10 States
         visited, we found 2,080 individuals with an SSN that did not fall within the range of
         possible SSNs according to SSA. Adding an edit check or a control on SSNs can ensure
         that input errors are corrected, and would improve the integrity of data in the system.

27
    7 CFR 272.4(e)(l). Each State agency shall establish a system to assure that no individual participates more than
once in a month, in more than one jurisdiction, or in more than one household within the State.
28
   7 CFR 272.4(e)(l).

12      AUDIT REPORT 27002-0011-13
        Controls that prevent erroneous SSNs are critical to ensure the integrity of the data so that
        States can rely and act on data matches performed to identify potentially fraudulent
        accounts.

        Previously Disqualified Recipients Receiving Benefits: We reviewed the Electronic
        Disqualified Recipient System (eDRS) and identified 1,305 active recipients who were
        listed in eDRS as being disqualified from receiving SNAP benefits. FNS maintains
        eDRS, which is a national system that tracks SNAP recipients who have been disqualified
        from the program due to intentional program violations. States are required to input
        individuals who have been disqualified, but they are not required to check this system
        before allowing a person into the program, unless they suspect the applicant has been
        previously disqualified.29 Many recipients we found were allowed to continue receiving
        SNAP benefits because 6 of the 10 States reviewed did not regularly check eDRS before
        allowing an individual into the program.

        Even when a State checks eDRS and finds an applicant identified as disqualified, the
        States are not allowed to take any action unless they contact the State that imposed the
        disqualification and verify that the information is correct.30 If the State that imposed the
        disqualification cannot provide this verification, no action can be taken, and disqualified
        individuals are allowed to continue participating in the program.

        States also noted that the information in eDRS is not always actionable, as the
        disqualifications in eDRS may not be supported. Since FNS maintains this database,
        FNS should ensure that data in the system are complete so that the data can be relied on
        when checking for SNAP recipients that have been previously disqualified. In response
        to our previous recommendations, FNS is now making eDRS checks mandatory. We
        agree with this action, and also recommend that FNS improve the completeness of the
        information in eDRS so that States can make decisions based on their own data, without
        requesting information from another State.

        EBT Reports: EBT management reports are available to the States through their EBT
        contractors. These reports help identify trends in recipient transactions that may suggest
        fraudulent behavior. Throughout our review, we found that States underutilized these
        reports or did not use them at all. One of our previous SNAP audits found that FNS did
        not require States to use EBT management reports to identify fraudulent activities. In
        that audit, we identified over 2,600 questionable transactions that totaled over $181,700
        for a 1-month period in two States that did not use the reports to identify potentially
        fraudulent activities. For example, one EBT report identifies excessive even dollar
        transactions which may indicate potentially fraudulent activity since retail transactions
        are not typically in whole dollar amounts. The audit recommended that FNS establish
        and provide guidance to States in identifying and assessing available EBT management
        reports to determine which reports could be most useful to each State’s fraud detection


29
  7 CFR 273.16(i).
30
  FNS, eDRS Technical Guide, November 18, 2010, states that the Computer Matching and Privacy Act of 1988
requires that all matches be verified through a secondary source.

                                                                  AUDIT REPORT 27002-0011-13                13
        unit.31 We continue to believe that FNS needs to encourage States to use a defined set of
        EBT management reports in detecting fraudulent activities and in following up on SNAP
        transactions that could be indicative of fraudulent activities.

        There are numerous EBT reports available to States and customized reports can also be
        created. Several examples of the available reports are:

        ·    “Out of State Activity” reports that identify SNAP recipients who redeem a majority
             of their benefits at retailers located out of their State.
        ·    “Even Dollar Transaction” reports that identify individuals who process an unusual
             number of even dollar transactions.
        ·    “Manual Transactions” reports summarize retailers who enter recipient EBT
             information manually instead of swiping the EBT card.
        ·    “Excessive Card Replacement” reports track recipients who request a replacement
             EBT card above a threshold number of cards set by each State.
        ·    “Out of State Card Replacement” reports list all cards issued to recipients from the
             EBT contractor and sent to out of State addresses.

        Management decision was reached on this prior recommendation and FNS officials
        issued guidance to the States on the importance of working with their EBT processors to
        determine the best tools available to assist in fraud prevention.

        Other Issues

        During our review we found other issues that, while not violations, are areas of concern
        that may warrant further review.

        Income limitations exceeded in SNAP: While not a program violation or a case of
        questionable payments, we also found households participating in the SNAP program that
        exceeded the income and asset limitations for SNAP. For example, in one State we
        found 61,065 households that exceeded the income limitations. Also, in another State,
        we found 6,970 households that exceeded the asset limitations of the SNAP program.
        This occurred because of the categorical eligibility policy, which makes those who are
        eligible for other Federal welfare programs, such as Temporary Assistance for Needy
        Families (TANF), automatically eligible for SNAP.32 However, these Federal welfare
        programs have different income and asset limitations, some of which are higher than
        SNAP’s. For instance, SNAP income and asset limitations, which apply for all States,33
        require that households receiving SNAP cannot have more than $3,250 of countable

31
   State Fraud Detection Efforts for the Supplemental Nutrition Assistance Program (27703-0002-HY,
January 2012).
32
   According to 7 CFR 273.2(j)(2), January 1, 2011, the “categorically eligible” policy allows States to align the
SNAP income and asset limits with other means-tested programs. A household is “categorically eligible” for SNAP
if all members receive Supplemental Security Income (SSI), general assistance (GA), TANF assistance, or non-cash
benefits or services. “Categorically eligible” households must meet the income and asset limits for the TANF, GA,
or SSI program to be eligible for SNAP. We did not include these instances in the count of improper payments.
33
   Alaska and Hawaii have higher income limits than other States.

14      AUDIT REPORT 27002-0011-13
           assets, such as a bank account. However, in Florida, the State’s own TANF eligibility
           rules do not place any limit on a recipient’s assets. Thus, someone who had a small
           income but a large amount of assets would be able to receive SNAP benefits in Florida if
           they qualified for TANF.

           Temporary SSNs: We also found individuals using invalid SSNs. States typically do
           not require a recipient to provide an SSN immediately upon application if the applicant
           can show good cause for not being able to. If a recipient does not provide an SSN at
           application, they are required to provide one at recertification, which must occur within
           one year, unless the recipient has good cause.34 If case workers forget to check, SSNs
           can remain blank or labeled as temporary. We found this problem in the majority of the
           States we reviewed. In one State alone, we found 10,137 such individuals because
           caseworkers were not being automatically alerted to acquire a valid SSN from a recipient
           at recertification. For reporting purposes, we did not consider these 10,137 as receiving
           improper payments because temporary SSNs are allowed—though the long-term use of
           temporary SSNs could be a concern. A system control that alerts the States to take action
           on an outstanding temporary SSN would improve this issue.

In all, the 27,044 recipients whose eligibility should have been researched cause us to question
approximately $3.7 million in benefits per month, based on the average benefit amount a
recipient and household receives in each of the 10 States reviewed. These recipients were
forwarded to their respective State agencies for further research and investigation. In response to
our recommendations, the State agencies are currently researching our findings, correcting those
cases found to be true errors, and working towards developing edit checks and procedures to
prevent these types of errors in the future.

FNS does have a variety of tools to detect and prevent fraud, and if these tools are 1) improved to
include more accurate data and 2) used to their full advantage by State agencies in a consistent
manner, we believe the SNAP program can be further strengthened. Currently, most States do
not solely rely on data matches to detect ineligible recipients, and must conduct further research
to determine the appropriate course of action. Because States’ fraud detection units have not
expanded to keep pace with significant increases in SNAP enrollment, having effective data
analysis tools becomes even more critical. Expanding database use, making enhancements
resulting in improved data accuracy, and making more verified systems available would decrease
the potential for improper payments in the SNAP program.

Recommendation 1
Ensure States have internal controls in place to prevent SSN input errors and invalid SSNs in
State agency systems.




34
     7 CFR 273.6.


                                                               AUDIT REPORT 27002-0011-13        15
Agency Response

To ensure participant information is accurate and complete, FNS is actively engaged in a
dialogue with regional offices and with States regarding policies and technical assistance tools
which can strengthen integrity to an even greater extent. FNS is processing final rules that will
codify the requirement that States perform the SSA death match, the prisoner match, and eDRS
matching prior to certification. The final regulation which codifies the current policy for the use
of the SSA death match by States was published August 13, 2012. FNS issued a policy memo
reminding States of the death and prisoner matching requirement on November 15, 2011. FNS
agrees with this recommendation and estimates completion by September 30, 2013.

OIG Position
We accept management decision for this recommendation. To achieve final action, FNS needs
to provide OCFO with specific internal controls used to prevent SSN input errors and invalid
SSNs in State agency systems.

Recommendation 2
Designate a comprehensive, national database containing information on deceased individuals,
and require States to check that system periodically and take appropriate action based on the
results.

Agency Response
Use of the SSA’s Death Master File is required by public law and FNS issued the final regulation
to codify the policy regarding its use on August 13, 2012.

OIG Position
OIG concurs with FNS’ response for this recommendation and has reached management
decision.

Recommendation 3
Continue with efforts to develop and implement the pilot system that will allow the five
participating southern States to check for dual participation within this group of States and report
the progress of the pilot program to OIG annually. Report the resulting determination on a
permanent, nationwide system to OIG upon completion of the pilot.




16     AUDIT REPORT 27002-0011-13
Agency Response
FNS agrees with this recommendation and estimates completion by September 30, 2013. FNS
continues efforts to develop and implement the National Accuracy Clearinghouse project in
FY 2013, which includes developing and deploying the system. The project is currently in
procurement and a feasibility report is expected in 2014.

OIG Position

OIG concurs with FNS’ response for this recommendation and has reached management
decision.

Recommendation 4
Develop a comprehensive list of Federal databases States can use to check recipient information
that FNS considers to be verified.

Agency Response
FNS agrees with this recommendation and estimates completion by March 31, 2013.

OIG Position
OIG concurs with FNS’ response for this recommendation and has reached management
decision.

Recommendation 5
Require States to implement edit checks that would prevent duplicative accounts within the same
State.

Agency Response
FNS agrees with this recommendation. FNS issued a policy memorandum to all States to outline
their expectations regarding duplicate participation on November 15, 2011.

OIG Position
OIG concurs with FNS’ response for this recommendation and has reached management
decision.




                                                           AUDIT REPORT 27002-0011-13        17
Recommendation 6
Improve the information in eDRS so that States have comprehensive resources to draw from
when they identify individuals disqualified from receiving SNAP benefits.

Agency Response
FNS has recently set in motion steps to enhance the eDRS system. It is making technology
upgrades which will allow for enhanced functionality for the States and increase data reliability.
FNS estimates completion by September 30, 2013.

OIG Position
OIG concurs with FNS’ response for this recommendation and has reached management
decision.

Recommendation 7
Define and communicate a standard set of fraud detection and prevention tools to be used by all
States for fraud detection and prevention, such as required EBT reports.

Agency Response
FNS communicated the importance of increasing fraud detection efforts on March 30, 2012.
FNS encouraged States to work with their contractors to develop more functional EBT reports,
focus on higher-value fraud cases, and require standard and ad hoc data warehouse analysis tools
for State fraud investigators. On October 14, 2011, FNS also issued a memo notifying States
they are expected to use results of FNS retailer disqualifications to pursue administrative
actions against recipients. FNS has notified the States of additional data that can be used to
pursue recipient fraud. In FY 2013, FNS plans to initiate a study for determining and
documenting the feasibility of using the redemption practices of a nationwide random sample of
SNAP retailers for calculating a national trafficking rate. FNS estimates that the study will be
completed by September 30, 2013.

OIG Position
OIG concurs with FNS’ response for this recommendation and has reached management
decision.




18     AUDIT REPORT 27002-0011-13
Finding 2: FNS Can Improve the SNAP Trafficking Fraud Rate Methodology
FNS has not established processes to identify or estimate the total amount of SNAP fraud
occurring nationwide, either for recipients or for retailers. FNS cannot estimate a total for
recipient fraud because it has not established how States should compile, track, and report fraud
in a uniform manner. Each State compiles data at different times using different sources. As for
retailer fraud, FNS does not report a total rate but instead focuses on reporting a trafficking
rate.35 Because FNS estimates its trafficking rate using a judgmental sample method, results
cannot be assumed to be representative of the retailer population; therefore, the actual extent of
trafficking could be over or underestimated. As a result, FNS does not have tools to effectively
measure total SNAP fraud over time.

The Improper Payments Information Act (IPIA) requires all agencies to identify, estimate annual
amounts, and report results of programs and activities that may be susceptible to significant
improper payments. USDA’s strategic plan includes a requirement to eliminate improper
payments and FNS designated SNAP as one of five programs susceptible to significant improper
payments.

FNS reports fraud using two types of estimates: one focused solely on a type of fraud, the other
focused on payment accuracy. Currently, SNAP fraud can be placed in two categories—
recipient fraud and retailer fraud. FNS does not have an overall rate that incorporates retailer
and participant fraud.

Recipient Fraud

Recipient fraud involves a client giving fraudulent information to a caseworker to obtain
benefits. An improper payment is any payment that should not have been made or that was made
in an incorrect amount under statutory, contractual, administrative, or other legally applicable
requirements.36 Currently, FNS publishes an improper payment rate that may include payments
related to fraud as well as those not related to fraud.37 Other than what is reflected in the
improper payment rate, States themselves do not publish a total recipient fraud rate in their
annual State Activity Report.

The prevention and detection of recipient fraud is the responsibility of the State agencies. In the
State Activity Reports, States report the number of recipient fraud investigations, prosecutions,
and administrative disqualifications that they perform on an annual basis. 38 FNS acknowledges
discrepancies in State data, as States compile their data at different times and from different



35
   Trafficking is any instance where a store employee exchanges something other than food (typically cash) for
SNAP benefits.
36
   Improper Payments Information Act of 2002 (P.L. 107-300, November 26, 2002).
37
   FNS identifies payment errors during its annual Quality Control review process. The Quality Control review
identifies over or under payments to the benefit amount a recipient receives. This is generally referred to as the error
rate.
38
   Administrative disqualifications occur when FNS finds an individual has committed an intentional program
violation.

                                                                         AUDIT REPORT 27002-0011-13                 19
sources.39 Because States do not have uniform rules for compiling these data, we believe the
current method of State reporting would make it difficult for FNS to provide a total recipient
fraud number.

Retailer Fraud

Retailers engage in a variety of fraudulent activities. The highest dollar amounts typically result
from trafficking, which is any instance where a store employee exchanges something other than
program-approved food (typically cash) for SNAP benefits. Other types of retailer fraud involve
issues such as allowing purchases of ineligible items (like alcohol and tobacco) or charging EBT
cards manually without an associated purchase. Retailer fraud is the responsibility of FNS;
however, FNS does not have a methodology for determining a total rate for retailer fraud. It
does publish a trafficking rate on a periodic basis.

While we believe FNS used extensive quantitative analyses to calculate the SNAP retailer
trafficking rate for 2006-2008, we also believe the study’s methodology can be improved.40
FNS researchers reviewed a sample of retailers that exhibited suspicious behavior based on a
particular set of indicators. Therefore, the retailers selected cannot be assumed to be
representative of the entire retailer population. This occurred because FNS used a judgmental
sample of this population for its statistics.41 FNS tailored its methodology to fit data available
from investigations and transaction databases instead of using a national random sample, and
FNS notes this limitation in its study.

Also, the study applied assumptions without providing a basis for those assumptions. For
example, when estimating the dollar value of trafficked benefits, researchers assumed that
“90 percent of redemptions in violating small stores were trafficked, and 40 percent in violating
large stores were trafficked.”42,43 This assumption means that, for a violating small store,
10 percent of the SNAP redemptions are assumed valid; 60 percent are assumed valid for large
stores that trafficked. FNS does not explain its method for arriving at that assertion.

We note that FNS has formed a new Technical Working Group to examine its methodologies for
calculating trafficking on the national and possibly the State levels, and we support FNS’ effort
to refine its current methods. We also note that FNS is planning to make substantial
improvements to ALERT this year, including the ability for ALERT to retain three years of data
instead of one. Since ALERT and the Watch Lists it generates are the basis for much of the
judgmental sample FNS uses to calculate its trafficking rate, if successful, these ALERT


39
   FNS Program Accountability and Administration Division, SNAP State Activity Report, December 2011.
40
   FNS, The Extent of Trafficking in the Supplemental Nutrition Assistance Program: 2006–2008, March 2011.
http://www.fns.usda.gov/ora/menu/published/SNAP/FILES/ProgramIntegrity/Trafficking2006.pdf.
41
   A judgment sample is a sample that is chosen by means other than mathematically random selection; in a
judgment sample, the laws of probability cannot be assumed to apply.
42
   Ibid, pg. C-1.
43
   In The Extent of Trafficking in the Supplemental Nutrition Assistance Program: 2006–2008, FNS categorized
stores as either large or small based on whether their gross annual sales were greater than or less than $500,000.
Large stores are typically supermarkets or large retailers such as Walmart, and small stores are typically small
grocery stores and convenience stores such as 7-Eleven.

20      AUDIT REPORT 27002-0011-13
improvements could also help strengthen FNS’ trafficking rate methodology as well. Finding
effective ways to track both recipient and retailer fraud over time will help strengthen the SNAP
program as a whole.

Recommendation 8
Determine and document the feasibility of creating a uniform methodology for States to calculate
their recipient fraud rate. Incorporate that information into a national recipient fraud rate.

Agency Response
FNS agrees with this recommendation and estimates completion by September 30, 2013. FNS
will initiate a review to determine and document the feasibility to create a uniform methodology
for States to calculate a fraud rate.

OIG Position
OIG concurs with FNS’ response for this recommendation and has reached management
decision.

Recommendation 9
Determine and document the feasibility of using the redemption practices of a nationwide
random sample of SNAP retailers for calculating a national trafficking rate.

Agency Response
FNS will initiate a study for determining and documenting the feasibility of using the redemption
practices of a nationwide random sample of SNAP retailers for calculating a national trafficking
rate. FNS estimates completion by September 30, 2013.

OIG Position
OIG concurs with FNS’ response for this recommendation and has reached management
decision.




                                                            AUDIT REPORT 27002-0011-13        21
Scope and Methodology
To accomplish our objective, we examined and summarized SNAP eligibility data from
10 selected State agencies in Alabama, Florida, Kansas, Louisiana, Massachusetts, Mississippi,
Missouri, New Jersey, New York, and Texas.44 These States were selected for review due to
high numbers or percentages of recipients, or close proximity to surrounding States and OIG
offices where the audit was being performed. We interviewed the 10 selected State agencies’
officials and obtained an extract of their eligibility databases in order to analyze States’ SNAP
program recipient information for the timeframe of August 2009 through April 2011. We
selected this timeframe because, at the time of our audit, it was the latest information available.
We conducted this audit from September 2011 through June 2012.

We also coordinated our audit with FNS’ Mid-Atlantic regional office in Robbinsville,
New Jersey; Mountain Plains regional office in Denver, Colorado; Northeast regional office in
Boston, Massachusetts; Southwest regional office in Dallas, Texas; Southeast regional office in
Atlanta, Georgia; and FNS’ national office in Alexandria, Virginia. We interviewed FNS and
State officials to identify the fraud detection tools available and determine how they were using
the tools. In addition, we identified the different fraud and error rates published by FNS and
determined if they were complete and accurate. To determine the methodology used to calculate
the SNAP trafficking fraud rate, we reviewed FNS’ study titled The Extent of Trafficking in the
Supplemental Nutrition Assistance Program: 2006–2008.

Our work involved a review of public laws, FNS regulations, policies, and other controls
governing the administration of SNAP to ensure State agencies complied with Federal
guidelines. We also evaluated previous USDA OIG audit reports on SNAP, FNS studies, the
Federal Manager’s Financial Integrity Act Report for FY 2011, and Government Accountability
Office reports.

We obtained SSA’s Death Master File and extracts of key SNAP recipient data from the
10 selected State agencies. We further obtained a listing of individuals listed as disqualified
within eDRS for the months of August 2009 through April 2011, and compared it to the SNAP
recipient data. We analyzed these data using Audit Command Language. Our tests were
developed to identify anomalies that may result in ineligible recipients receiving SNAP program
benefits, and to determine whether FNS provided adequate program guidance and oversight.

Our tests determined whether:

     ·   Active SNAP recipients were listed in the DMF.
     ·   Invalid SSNs were entered into the system.


44
   We conducted our audit work with the Department of Human Resources in Montgomery, Alabama; Department
of Children and Families in Tallahassee, Florida; Social and Rehabilitation Services in Topeka, Kansas; Department
of Children and Family Services in Baton Rouge, Louisiana; Department of Transitional Assistance in Boston,
Massachusetts; Mississippi Department of Human Services in Jackson, Mississippi; Department of Social Services
in Jefferson City, Missouri; Division of Family Development in Trenton, New Jersey; Office of Temporary and
Disability Assistance in Albany, New York; and Health and Human Services Commission in Austin, Texas.

22       AUDIT REPORT 27002-0011-13
     ·   Recipients received duplicate payments.
     ·   Recipients were receiving benefits simultaneously from nearby States.
     ·   Active SNAP recipients were listed as disqualified in eDRS.

As appropriate, when we identified anomalies, we forwarded the information to the respective
State agency for review and verification. In New York specifically, given the large volume of
anomalies we found, we sent the State a random statistical sample of our results to decrease the
amount of resources required to research the results.

To determine the feasibility of collecting and analyzing detailed information on what recipients
buy from retail stores with their SNAP benefits, we reviewed a September 1999 FNS study on
capturing food data at checkout to determine the advantages and disadvantages of doing so.45
We also interviewed FNS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




45
  FNS, Office of Analysis, Nutrition, and Evaluation Study, Feasibility Study of Capturing Food Data at Checkout,
September 1999. This study determined the feasibility of collecting bar-code data on products purchased with
SNAP benefits and linking those data with demographic information about the SNAP household.

                                                                      AUDIT REPORT 27002-0011-13             23
Abbreviations
ALERT ........................ Anti-Fraud Locator using Electronic Benefits Transfer Retailer
                                     Transactions
CFR ............................. Code of Federal Regulations
DMF ............................ Death Master File
EBT ............................. Electronic Benefits Transfer
eDRS ........................... Electronic Disqualified Recipient System
FNS ............................. Food and Nutrition Services
FY ............................... Fiscal Year
GA ............................... General Assistance
HHS............................. Department of Health and Human Services
IPIA ............................. Improper Payment Information Act
NAC ............................ National Accuracy Clearinghouse
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
PARIS ......................... Public Assistance Reporting Information
PL ................................ Public Law
RIB .............................. Retailer Investigations Branch
SAR ............................. State Activity Report
SLEB ........................... State Law Enforcement Bureau
SNAP .......................... Supplemental Nutrition Assistance Program
SSA ............................. Social Security Administration
SSI ............................... Supplemental Security Income
SSN ............................. Social Security Number
STARS ........................ Store Tracking and Redemptions System
SVES ........................... State Verification Exchange System
TANF .......................... Temporary Assistance for Needy Families
USDA.......................... United States Department of Agriculture




24     AUDIT REPORT 27002-0011-13
Exhibit A: List of OIG SNAP Audit Reports
  ·   27703-02-HY (1) - State Fraud Detection Efforts for the Supplemental Nutrition
      Assistance Program—Use of EBT Management Reports, July 2010.
  ·   27703-02-HY (2) - State Fraud Detection Efforts for the Supplemental Nutrition
      Assistance Program—Use of EBT Management Reports, September 2010.
  ·   27703-1-KC - Supplemental Nutrition Assistance Program Benefits and the Thrifty Food
      Plan, December 2009.
  ·   27501-02-HY - Application Control Review of the Food and Nutrition Service’s Store
      Tracking and Redemption System II, March 2008.
  ·   27099-32-SF - ALERT Watch List, July 2006.
  ·   27002-0001-DA - Analysis of SNAP ALERT, December 2011.
  ·   27002-0001-13 - Analysis of Kansas’ SNAP Eligibility Data, November 2011.
  ·   27002-0002-13 - Analysis of Florida’s SNAP Eligibility Data, November 2011.
  ·   27002-0003-13 - Analysis of Louisiana’s SNAP Eligibility Data, January 2012.
  ·   27002-0004-13 - Analysis of Alabama’s SNAP Eligibility Data, January 2012.
  ·   27002-0005-13 - Analysis of Mississippi’s SNAP Eligibility Data, January 2012.
  ·   27002-0006-13 - Analysis of Texas’ SNAP Eligibility Data, March 2012.
  ·   27002-0007-13 - Analysis of Missouri’s SNAP Eligibility Data, March 2012.
  ·   27002-0008-13 - Analysis of Massachusetts’ SNAP Eligibility Data, April 2012.
  ·   27002-0009-13 - Analysis of New Jersey’s SNAP Eligibility Data, April 2012.
  ·   27002-0010-13 - Analysis of New York’s SNAP Eligibility Data, June 2012.




                                                       AUDIT REPORT 27002-0011-13      25
26   AUDIT REPORT 27002-0011-13
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27002-0011-13   27
United States
Department of
                 DATE:          September 24, 2012
Agriculture
                 AUDIT
Food and         NUMBER:        27002-0011-13
Nutrition
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive                    Office of the Inspector General
Room 712

Alexandria, VA   FROM:          /s/ <Jessica Shahin> (for): Audrey Rowe
22302-1500
                                Administrator

                 SUBJECT:      Analysis of FNS’ Supplemental Nutrition Assistance Program (SNAP)
                               Fraud Prevention and Detection Efforts

                 This letter responds to the official draft report for audit report number 27002-0011-13,
                 Analysis of FNS’ Supplemental Nutrition Assistance Program (SNAP) Fraud
                 Prevention and Detection Efforts. Specifically, the Food and Nutrition Service (FNS)
                 is responding to the nine recommendations in the report.

                 Recommendation 1:

                 Ensure States have internal controls in place to prevent SSN input errors and invalid
                 SSNs in State agency systems.

                 FNS Response:

                 FNS agrees with this recommendation. FNS takes program integrity very seriously.
                 Any errors are of concern; however, FNS notes that the findings in this report
                 constitute 0.20 percent of the caseload suggesting that while current processes can
                 always be improved, they are, in fact, working. Pursuant to the critical importance of
                 integrity to ensure that people in need receive nutrition assistance to which they are
                 entitled, FNS is actively engaged in a dialogue with our regional offices and with States
                 regarding policies and technical assistance tools that can strengthen integrity to an even
                 greater extent.

                 Estimated Completion Date: September 30, 2013

                 Recommendation 2:

                 Designate a comprehensive, national database containing information on deceased
                 individuals, and require States to check that system periodically and take appropriate
                 action based on the results.
                                                                                   P age |2




FNS Response:

The use of the Social Security Administration’s (SSA) Death Master File is required by
public law and was implemented through agency directive in 2000. The final regulation
which codifies the current policy for the use of this database by States was published on
August 13, 2012. The SSA Death Master File is the database that has been designated for
use by States and by the administering Agency’s own guidance; however, the information
must still be verified before taking any adverse action against the household. FNS also
issued a policy memo on November 15, 2011 reminding States of this requirement.

The nature of the death match process inherently results in a lag time between an
individual’s date of death and the date benefits are terminated or adjusted. This lag is the
result of a sequence of actions that begins after the date of death and must all be
completed before the benefits are terminated.

Completion Date: August 13, 2012


Recommendation 3:

Continue with efforts to develop and implement the pilot system that will allow the five
participating southern States to check for dual participation within this group of States
and report the progress of the pilot program to OIG annually. Report the resulting
determination on a permanent, nationwide system to OIG upon completion of the pilot.

FNS Response:

FNS agrees with this recommendation. FNS has awarded a grant through the Office of
Management and Budget (OMB) Partnership Fund for Program Integrity. This grant is
funding the development of a pilot clearinghouse database with information from five
participating States (Florida, Mississippi, Georgia, Alabama and Louisiana) for
detecting duplicate participation in SNAP and disaster SNAP (D-SNAP) across State
boundaries. FNS will continue with efforts to develop and implement the National
Accuracy Clearinghouse (NAC) project in FY 2013, which includes developing and
deploying the system.

Estimated Completion Date: September 30, 2013


Recommendation 4:

Develop a comprehensive list of Federal databases States can use to check participant
information that FNS considers to be verified.




                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                                  P age |3




FNS Response:

FNS agrees with the recommendation. FNS believes that it is vital that States ensure that
information is accurate before taking an adverse action. There are numerous databases
used by States to determine SNAP eligibility. The use of these databases for State
workers is important; however, allowing workers to take action on information that is not
accurate would serve as a disservice to clients who are wrongfully denied or terminated
and to the workers who will have to do more work to reopen cases. FNS issued guidance
in 2000 to all States in the Questions and Answers on the Noncitizen Eligibility and
Certification Provisions Final Rule (November 21, 2000). This guidance provides details
for States on how to determine if a database is considered verified upon receipt. The
guidance is clear that in order to be considered verified upon receipt, the data must come
from the primary source of the information and that the data is not questionable.

Estimated Completion Date: March 31, 2013


Recommendation 5:

Require States to implement edit checks that would prevent duplicative accounts within
the same State.

FNS Response:

FNS agrees with this recommendation. Per SNAP regulations at 7 CFR 272.4(e)(1), each
State agency shall establish a system to assure that no individual participates more than
once in a month, in more than one jurisdiction, or in more than one household within the
State. FNS further encourages States to have processes in place to check data with
neighboring States to prevent duplicate participation across State lines. On November
15, 2011, FNS issued a policy memorandum to all States which clearly expressed the
expectation that States routinely perform these checks for duplicate participation as
required by regulation, in order to ensure that only those who are eligible receive SNAP
benefits, per federal regulations at 7 CFR 272.4(e)(1). The Public Assistance Reporting
Information System (PARIS) is available to States as an additional tool to identify
interstate duplicate participation but it is not mandatory for States to use PARIS. Some
States have expressed concerns that the information in PARIS is not timely.

Furthermore, in March 2012, FNS awarded a grant through the OMB Partnership Fund to
the National Accuracy Clearinghouse to test the feasibility of establishing a single
database for five States to perform real-time edit checks to prevent duplicate
participation. The project is currently in procurement and a feasibility report is expected
in 2014.

Completion Date: November 15, 2011




                             AN EQUAL OPPORTUNITY EMPLOYER
                                                                                P age |4




Recommendation 6:

Improve the information in eDRS so that States have comprehensive resources to draw
from when they identify individuals disqualified from receiving SNAP benefits.

FNS Response:

FNS recently awarded a task order to the eDRS contractor to enhance the system which
will further improve the options available to minimize burden on the States. FNS has a
number of enhancements planned for the task order which will last through FY 2013.
FNS plans to create a web service to allow State systems to exchange data with eDRS in
real-time. This would allow an eligibility worker to check eDRS without leaving their
State eligibility system. FNS is also working on enhanced security and auditing features
to improve the integrity of data in the system and FNS’ ability to track down errors.
Finally, FNS also plans on making technology upgrades to the system. These upgrades
must be completed before FNS can consider additional enhancements, such as being able
to upload documents in the system.

Estimated Completion Date: September 30, 2013


Recommendation 7:

Define and communicate a standard set of fraud detection and prevention tools to be used
by all States for fraud detection and prevention, such as required EBT reports.

FNS Response:

FNS continues to emphasize to States in meetings and other forums the importance of
working with their EBT processors to determine the best data available to help with fraud
detection. Often it is not the pre-packaged canned reports, but other ad-hoc or specially
developed reports that will be most helpful. States often have internal reports and data
mining tools that are also extremely useful in fraud detection efforts. Most States now
require data warehouses and use those for internal fraud analysis rather than paper
reports. FNS encourages electronic fraud analysis methods and continues to work with
the States to re-design their approach, based on our 15 years of experience using the
ALERT system, to develop more effective methods for client fraud detection. At OIG’s
request, FNS agreed that, by March 31, 2012, it would send States a formal
communication stressing the importance of working with their EBT processors on
methods of fraud detection. A letter was sent out on March 30, 2012 encouraging States
to:
     Include contract language that allows the State to set parameters to focus on the
        more egregious problems and require the contractor to change parameters upon
        request at no cost;



                             AN EQUAL OPPORTUNITY EMPLOYER
                                                                                   P age |5




      Re-organize and re-sort the content to identify higher value fraud cases as
       opposed to the current categorization method that typically relies on case number,
       FNS retailer number, date, or time;
      Add new reports to address issues like high volume card replacements;
      Expand their data warehouse functionality to allow analysis or reports to cover
       client activity over multiple months; and
      Require standard and ad hoc data warehouse analysis tools for State fraud
       investigators.

OIG accepted FNS’ management decision, and this task was completed by March 31,
2012, as agreed.

In the past year, FNS took other efforts with States to address fraud detection and
prevention. On October 14, 2011, FNS issued a policy memo stating FNS’ expectation
that States will use the results of FNS retailer disqualification actions to investigate and
penalize recipients for trafficking. The policy memo provided guidance regarding the use
of data that FNS provides to States documenting retailer disqualifications as a potent
source of evidence in recipient trafficking cases. FNS shares information with States
regarding retail stores found guilty of trafficking SNAP benefits and therefore
permanently disqualified from participation in SNAP. FNS provides States with copies
of letters notifying retailers of their disqualification from SNAP and the data/evidence
supporting the disqualification. The data and other information FNS shares with States
contain household transactions that FNS has determined meet patterns indicative of
trafficking. FNS expects States to use this information to determine which recipient
cases need further investigation.

Management Evaluation (ME) targets for FY 2012 include recipient integrity issues,
particularly State fraud unit activities including use of EBT and other appropriate data to
identify potential recipient fraud.

FNS sent a letter to all State SNAP commissioners on June 21, 2011, reiterating the
critical importance of integrity, encouraging all State to be even more active and vigilant
in this area, including the use of available data.

Completion Date: March 31, 2012


Recommendation 8:

Determine and document the feasibility of creating a uniform methodology for States to
calculate and report a national participant fraud rate.

FNS Response:

FNS agrees with this recommendation. State agencies currently report activity to FNS
using Form-366B, which provides uniform rules for collecting pre and post certification



                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                                  P age |6




fraud investigations, disqualifications, hearings, prosecutions, and claims. In FY 2013,
FNS will initiate a review to determine and document the feasibility to create a uniform
methodology for States to calculate a fraud rate based on the data currently available, as
well as to identify any gaps or limitations imposed by State systems, data integrity, or
resources necessary to establish an accurate and reasonable national participant fraud
rate.

Estimated Completion Date: September 30, 2013


Recommendation 9:

Determine and document the feasibility of using the redemption practices of a nationwide
random sample of SNAP retailers for calculating a national trafficking rate.

FNS Response:

FNS agrees with this recommendation. The current estimation methodology is based on
investigations and monitoring of a sample of stores most likely to traffic, adjusted to
reflect the full population of redemptions at authorized stores. Although this
methodology makes maximum use of all available data and resources and offers a
conservative and practical approach, it has known limitations. Therefore, in FY 2013,
FNS will initiate a study for determining and documenting the feasibility of using the
redemption practices of a nationwide random sample of SNAP retailers for calculating a
national trafficking rate.

Estimated Completion Date: September 30, 2013




                              AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Administrator, Food and Nutrition Service
 Attn: Agency Liaison Officer (8)

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division (1)
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
